 


                    
 
 
                   
      FEDERAL TRADE COMMISSION
    SEMIANNUAL REPORT TO CON-
             GRESS
      Office of Inspector General

                             Report No. 47




                    
 




Photo above: The Federal Trade Commission building 600 Pennsylvania ave.
NW, Washington DC.




                                      
 




The Federal Trade Commission (FTC) is an independent agency of the United States
government. Established in 1914 by the Federal Trade Commission Act (15 U.S.C.
§41-58, as amended). The FTC has two critical goals: protecting consumers and
maintaining competition. The FTC’s mission is to prevent business practices that are
anticompetitive or deceptive or unfair to consumers; to enhance informed consumer
choices and public understanding of the competitive process; and to accomplish these
missions without unduly burdening legitimate business activity.

The FTC’s mission is carried out by three bureaus: the Bureau of Consumer Protection,
the Bureau of Competition, and the Bureau of Economics. Work is aided by offices
including the Office of the General Counsel, the Office of Inspector General, the Office
of International Affairs, the Office of the Executive Director, and seven regional offices.
The FTC is headed by a commission composed of five commissioners, nominated by
the President and confirmed by the Senate, each serving a seven-year term.

The FTC seeks to ensure that the nation’s markets are competitive, efficient and free
from undue restrictions. The FTC also seeks to improve the operations of the
marketplace by ending unfair and deceptive practices with emphasis on those practices
that might unreasonably restrict or inhibit the free exercise of informed choice by
consumers. The FTC relies on economic analysis to support its law enforcement
efforts and to contribute to the economic policy deliberations of Congress, the
Executive Branch and the public.

Many of the FTC’s resources can be accessed through its Web site www.ftc.gov.




This issue of our Semiannual report to Congress features decorative elements from the Federal Trade Commission
building 600 Pennsylvania Ave. N.W. Washington D.C.




                                                         
 




In 1938, Michael Lantz won the competition to design two sculptures for the apex building, home of the Federal
Trade Commission In Washington, D.C. The widely publicized “Apex Competition“ was the largest American sculp-
ture competition ever held, receiving almost five hundred models from more than two hundred artists.


Lantz submitted small models of his designs, each showing a heroic figure straining to control a powerful horse.
the final, seventeen foot-long statues were completed in 1942 and installed outside the eastern entrance of the
Federal Trade Commission building, where they can be seen today   




                                                           
  

                                   UNITED STATES OF AMERICA

                              FEDERAL TRADE COMMISSION
OFFICE OF INSPECTOR GENERAL          WASHINGTON, D.C. 20580




April 30, 2012




A MESSAGE FROM THE INSPECTOR GENERAL

On behalf of the Federal Trade Commission Office of Inspector General (OIG), I am pleased to
present our Semiannual Report to Congress for the period ended March 31, 2012.

During the semiannual period, we issued the annual financial statement audit report and the
annual FISMA report. Our reports can be found at www.ftc.gov/oig. In addition, we completed
a peer review of the Postal Regulatory Commission Office of Inspector General.

The OIG processed 80 consumer inquiries and allegations of possible wrongdoing. We opened six
new investigations and closed five criminal investigations. We closed 11 complaints during the current
reporting period and referred 55 complaints to appropriate FTC program offices and one to another
federal agency.

As in the past, FTC management has been responsive in working with the OIG to resolve all
proposed recommendations. We appreciate management’s support and look forward to working with
management in our ongoing efforts to promote economy and efficiency in agency programs.




John M. Seeba
Inspector General




                                                  1
 




                         INTRODUCTION AND DEFINITIONS

    THE MISSION OF THE OFFICE OF INSPECTOR GENERAL IS TO PROMOTE ECONOMY,
    EFFICIENCY, AND EFFECTIVENESS BY DETECTING AND PREVENTING WASTE, FRAUD,
    AND ABUSE.


    In compliance with the Inspector General Act Amendments of 1988 (5 U.S.C. app.), the
    Office of Inspector General (OIG) was established in 1989, as an independent and objective
    organization within the FTC.

    Under the Inspector General Act, the OIG is responsible for conducting audits and
    investigations relating to the programs and operations of the FTC. Audits are conducted for
    the purpose of finding and preventing fraud, waste and abuse and to promote economy,
    efficiency and effectiveness within the agency. OIG investigations seek out facts related to
    allegations of wrongdoing on the part of FTC employees and individuals or entities having
    contracts with or obtaining benefits from the agency.

    Individuals who wish to file a complaint about the business practices of a particular company
    or entity, or allegations of identity theft, deceptive advertising practices or consumer fraud
    should file a complaint with the FTC Bureau of Consumer Protection.

    Complaints to the OIG from the public or from an FTC employee can be made
    anonymously. The identity of an FTC employee who reports waste or wrongdoing to the
    OIG will be protected from disclosure consistent with provisions of the Inspector General
    Act. In addition, the Inspector General Act and the Whistleblower Protection Act prohibit
    reprisals against employees for complaining to or cooperating with the OIG.

    The OIG is required by law to prepare a semiannual report summarizing the activities of the
    Office during the immediately preceding six-month period. The report is sent to the FTC
    Chairman, the President of the Senate, the Speaker of the House and FTC’s appropriating and
    authorizing committees. This dual reporting requirement facilitates and ensures the
    independence of the Office. The OIG has a budget of $1,037,100 for fiscal year 2012.




                                                  2
 




                        TABLE OF CONTENTS




A MESSAGE FROM THE INSPECTOR GENERAL ——————————————                 1


INTRODUCTION AND DEFINITIONS ——————————————————                     2


AUDITS AND RELATED ACTIVITIES ——————————————————— 5


INVESTIGATIVE ACTIVITIES —————————————————————— 7


OTHER ACTIVITIES —————————————————————————                          9



TABLE 1: REPORTS WITH RECOMMENDATIONS ON WHICH CORRECTIVE ACTION
HAS NOT BEEN COMPLETED ——————————————–———————                       12



TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS —   14



TABLE 3: INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS
THAT FUNDS BE PUT TO BETTER USE ———————————————–——                  15


TABLE 4: SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS —      16


CONTACTING THE OFFICE OF INSPECTOR GENERAL ———————–———— 17




                                     3
 
                                                                                                            
     
     
     
    WE PERFORM THE FOLLOWING SERVICES:


    ATTESTATIONS involve examining, reviewing, or applying agreed-upon procedures on a subject
     matter, or an assertion about a subject matter. Attestations can have a broad range of financial
     or nonfinancial objectives as the FTC’s compliance with specific laws and regulations,
     validation of performance against performance measures; or reasonableness of cost.

    PERFORMANCE AUDITS address the efficiency, effectiveness, and economy of the FTC’s
     programs, activities, and functions; provide information to responsible parties to improve
     public accountability; facilitate oversight and decision making; and initiate corrective actions as
     needed.

    FINANCIAL AUDITS provide an independent assessment of whether financial statements are
     presented fairly in accordance with generally accepted accounting principles. Reporting on
     financial audits in accordance with Government Auditing Standards also includes reports on
     internal control, and compliance with provisions of laws, regulations, and contracts as they
     relate to financial transactions, systems and processes.

    INVESTIGATIONS are conducted based on alleged or suspected fraud, waste, abuse or gross
     mismanagement, employee and contractor misconduct, and criminal and civil violations of law
     that have an impact on FTC’s programs and operations. The OIG refers matters to the U.S.
     Department of Justice whenever the OIG has reasonable grounds to believe there has been a
     violation of federal criminal law. The OIG also identifies fraud indicators and recommends
     measures to management to improve the agency’s ability to protect itself against fraud and
     other wrongdoing.




                                                     4
 

                                                     The audit was performed in accordance with
                                                     U.S. generally accepted government auditing
                                                     standards and OMB audit guidance. For the
                                                     15th consecutive year the FTC received an
                                                     unqualified opinion, the highest opinion given
                                                     by independent auditors. As a result of the
                                                     audit of FTC’s financial statement for the year
                                                     ended September 30, 2011, DJHPM found:


                                                        the financial statements were presented
                                                          fairly, in all material respects, in
                                                          conformity with U.S. generally accepted
                                                          accounting principles,


                                                        no material weaknesses in internal control
                                                          over financial reporting (including
                                                          safeguarding assets) and compliance with
AUDITS AND RELATED ACTIVITIES                             laws and regulations, and


                                                        no reportable noncompliance with laws
Completed Audits and Reports
                                                          and regulations tested.

During this period, we issued two reports on         AR 12-002 – Evaluation of FTC’s
the Federal Trade Commission: the financial
                                                     Information and Security Program and
statement audit report, and the annual FISMA
report.                                              Practices for FY 2011


AR 12-001 Audit of the FTC Financial                 The Federal Information Security
Statements for FY 2011                               Management Act of 2002 (FISMA) requires
                                                     federal agencies, including the FTC, to
                                                     develop, document, and implement an agency-
Federal law requires that the FTC obtain an          wide information security program. FISMA
annual independent audit of its financial            also requires each Inspector General to
statements, which the OIG oversees. We               conduct an independent evaluation of its
contracted with the independent public               agency’s information security program and
accounting firm of Dembo, Jones, Healy,              practices.
Pennington & Marshall, P.C. (DJHPM) under
a multiyear contract for which the OIG serves
as the Contracting Officer’s Representative          The OIG contracted with Allied Technology
(COR). The oversight of the contractor               Group Inc. (Allied Technology) to perform the
ensured that the audit complied with generally       FY 2011 IG FISMA evaluation of the FTC
accepted government auditing standards and           information assurance and privacy programs.
met contract requirements.                           The objective was to provide an evaluation of
                                                     the effectiveness of the FTC’s information
                                                     assurance and privacy programs and
                                                     compliance with Office of Management and
                                                     Budget (OMB) and National Institute of
                                                     Standards and Technology (NIST) guidance.


                                                 5
 



                                                      Audit Resolution and Corrective Actions
This information is provided to senior
management and others to enable them to
determine the effectiveness of overall security       During this semiannual reporting period, the
programs, to ensure the confidentiality and           FTC offices and bureaus made significant
integrity of data entrusted to the FTC, and to        efforts to reduce the backlog of open
develop strategies/best practices for cost            recommendations, while ensuring that the
effectively improving information security.           most recent recommendations were fully
                                                      implemented. Based on the appropriate
The evaluation showed that the FTC has                evidence and documentation management
established an information security program           provided to the OIG to support its
that is in substantial compliance with                implementation of the OIG’s
applicable security and privacy requirements.         recommendations, the OIG closed 18
                                                      recommendations related to six different
The status of the FTC information assurance           Office of Inspector General reports during this
and privacy programs was summarized in the            semiannual reporting period. Table 1 shows all
FISMA reporting metrics submitted through             recommendations open 180 days or more on
CyberScope, the platform for the FISMA                which corrective actions are still in progress.
reporting process. As stated in the Cyberscope
metric report, the IG independent evaluation
of the FTC information assurance and privacy          Audit Activities Planned or In-Progress
programs resulted in a determination that the
programs provide reasonable assurance that
FTC information assets are adequately                 The OIG plans the following audit related
protected, but there are opportunities for            activities during the second half of FY 2012:
improvement. The FTC information
assurance and privacy programs continue to
evolve:                                               Audit of the FTC Financial Statements for
                                                      FY 2012 — A financial statement audit is
                                                      required annually under the Accountability of
   Controls are being added and enhanced to         Tax Dollars Act of 2002. We contract out this
     address threat, vulnerability, and               audit to an independent public accountant to
     requirements changes                             perform this work. The OIG serves as the
                                                      Contracting Officer’s Representative (COR)
   Planning practices are being enhanced to         and provides oversight on the contract. The
     incorporate security and privacy                 purpose of the audit is to express an opinion
     requirements at all levels of information        on the financial statements of the Federal
     system planning, from enterprise to              Trade Commission for the fiscal year ending
     individual system planning                       September 30, 2012. The audit will also test
                                                      the internal controls over financial reporting
   Continuous monitoring practices are              and assess compliance with selected laws and
     being instituted to provide FTC                  regulations. The audited financial statements
     management with the current status and           are included in the financial section of the
                                                      agency’s Performance and Accountability
     “health” of the FTC information
     assurance and privacy programs.                  Report to be issued in November 2012.




                                                  6
 




    Review of FTC FISMA Implementation
    for FY 2012 — The Federal Information
    Security Management Act of 2002 (FISMA)
    requires an annual evaluation of each agency’s
    information security program and practices to
    determine their effectiveness. The evaluation
    shall be performed by the Inspector General
    or by an independent external auditor, as
    determined by the Inspector General.


    To assist us in conducting this review, we hire
    an independent consultant to perform this
    work. The OIG acts as the COR and
    performs oversight during the execution of
    this contract. The review includes evaluating
    the adequacy of the FTC’s computer security           INVESTIGATIVE ACTIVITIES
    program and practices for its major systems.

                                                          The Inspector General is authorized by the IG
                                                          Act to receive and investigate allegations of
    Other Potential Reviews                               employee misconduct as well as fraud, waste
                                                          and abuse occurring within FTC programs
                                                          and operations.          Matters of possible
    During the upcoming year we will also                 wrongdoing are referred to the OIG in the
    conduct research on the following program             form of allegations or complaints from a
    functions to determine the need for further           variety of sources, including FTC employees,
    audit work:                                           other government agencies and the general
                                                          public. Reported incidents of possible fraud,
                                                          waste and abuse can give rise to
       Inventory controls over accountable              administrative, civil or criminal investigations.
         information technology equipment


       Acquisition processes     and    contract        Investigative Summary
         management
                                                          During this reporting period, the OIG
                                                          received 80 consumer complaints and other
       Financial management: recording contract
                                                          inquiries and reports of possible wrongdoing.
         actions
                                                          Of the 80 complaints, 55 involved issues that
                                                          fall under the jurisdiction of FTC program
                                                          components (identity theft, credit repair, etc.)
       Non Federal sponsored travel                     and not the OIG. These matters were referred
                                                          to the appropriate FTC component for
                                                          disposition.


                                                      7
 



Of the remaining complaints, the OIG opened             Our investigation revealed that the subject
six new investigations and 11 complaints were           employee opened a personal rewards account
closed with no further OIG action. One                  with the hotel chain with which the employee
complaint to the OIG was referred to another            negotiated conferences and meetings. The
federal or state agency with appropriate                employee retained over 230,000 reward points
jurisdiction. We also assisted two other OIGs           in that personal account, resulting from FTC
in ongoing investigative activities. The                business that the employee negotiated with
remaining complaints resulted in a preliminary          sales representatives from individual hotel
inquiry that was ultimately closed. One                 properties. The employee denied having made
complaint is still under review.                        any request for reward points on the basis of
                                                        FTC business. Our investigation uncovered
                                                        documentation from both agency management
In addition to the complaints above, the OIG
                                                        and the hotel chain confirming the employee’s
receives complaints from individuals who
                                                        election to have points awarded. Accordingly,
reported impersonations of the FTC staff.
                                                        we referred the violations of the Federal Travel
These complaints are part of an ongoing multi-
                                                        Regulations and other deceptive conduct to
agency investigation addressing lottery and
                                                        agency management for administrative action.
sweepstakes scams.

                                                        The second investigation was opened and
The following is a summary of the OIG's
                                                        closed during this reporting period. We
investigative activities for the six-month period
                                                        opened an investigation to allegations that an
ending March 31, 2012:
                                                        agency employee (SES level) violated the
                                                        criminal financial conflict of interest statute.
    Cases pending as of 9/30/11            5            18 U.S.C. § 208.         We investigated the
                                                        allegations and referred the matter to the
                                                        Department of Justice (DOJ).
    PLUS: New cases                        6

                                                        The third and fourth investigations, opened in
    LESS: Cases closed                    (5)           a prior reporting period, involved the same
                                                        FTC employee. This investigation, involving
                                                        potential worker’s compensation fraud, was
    Cases pending as of 3/31/12            6            referred to the Department of Justice. This
                                                        matter was also referred to agency
                                                        management for administrative action.
Investigations Closed
                                                        The fifth investigation, opened and closed
During this reporting period, the OIG closed
                                                        during this reporting period, involved
five investigations. The first investigation,
                                                        allegations of an unauthorized disclosure of a
opened during the preceding reporting period,
                                                        nonpublic draft staff memorandum. The
involved allegations that an agency employee
                                                        unsigned draft document was presented to a
received promotional benefits as a result of
                                                        senior agency official during congressional
contracts that the employee negotiated on
                                                        hearings on food marketing to children.
behalf of the FTC. The Federal Travel
Regulations prohibit federal employees                  Our investigation sought to identify who
responsible for planning meetings and                   disclosed the document outside the agency.
conferences on behalf of the Government
from retaining promotional benefits for
personal use.

                                                    8
 

Evidence showed that the draft memorandum            The FTC Inspector General is also the chair
was disclosed, in accordance with inter-agency       of the audit committee overseeing the audit of
working group procedures, by an FTC                  the Department of Defense Inspector
employee to another federal agency employee          General’s financial statements. In this
who participated on the inter-agency working         capacity, the IG along with two other senior
group. The document was released to a                government officials, provide oversight on the
FOIA requester by the other agency, with no          DOD IG’s financial statement audit.
prior referral to the FTC’s FOIA staff.
Accordingly, we provided the results of our          Our IG Counsel participates regularly in the
investigation to agency management and               monthly meeting of the Council of Counsel to
closed the investigation.                            the Inspectors General (CCIG), as well as
                                                     contributes to the legal discourse within that
Matters Referred for Prosecution                     Council on matters that are germane to the
                                                     entire IG community.
During the current reporting period, the OIG
referred two matters to the Department of            Our Lead Investigator is actively participating
Justice (DOJ) for consideration of potential         in two OIG-community working groups that
criminal action. These matters are described         are redesigning training programs for
in the preceding section.                            investigators engaged in undercover
                                                     operations and for advanced interviewing
                                                     techniques. The training programs are
OTHER ACTIVITIES                                     available through the Inspector General
                                                     Criminal Investigator Academy in conjunction
                                                     with the Federal Law Enforcement Training
Liaison with Other Agencies
                                                     Center.
In conducting criminal investigations, the
OIG has sought assistance from, and worked           Our Lead Investigator also participates in the
jointly with other law enforcement agencies          Metro Area Fraud Task Force (MAFTF)
including Department of Homeland Security,           headed by the Secret Service. This task force
Federal Protective Service, United States            is made up of law enforcement professionals
Postal Service, Federal Bureau of                    in the Washington, DC metro area who work
Investigation, U.S. Postal Inspection Service,       together to identify suspects and solve various
U.S. Secret Service, U.S. Marshals Service,          crimes.
Internal Revenue Service, U.S. Capitol Police,
as well as state agencies and local law              In addition, our Lead Investigator is actively
enforcement agencies.                                participating on a Department of Justice
                                                     (DOJ) led multi-agency task force addressing
                                                     crimes related to lottery and sweepstakes
Activities within the Inspector General              scams targeting the elderly. The task force is
Community                                            actively investigating these crimes and moving
                                                     toward prosecution of those found
The FTC IG is an active participant in the           responsible.
Council of the Inspectors General on
Integrity and Efficiency (CIGIE), a council of
inspectors general that promotes collaboration       This task force receives consumer complaints
on integrity, economy, and efficiency issues         from many sources, including Lloyds of
that transcend individual agencies. The IG is        London, the Department of the Treasury, the
the vice-chair of the Audit Committee of the         FTC Consumer Response Center, the general
CIGIE and is a member of the Legislative and         public and other sources.
Information Technology Committees.

                                                 9
 




    We are participating in this task force because         Review of Legislation
    the fraudsters often identify themselves as
    employees of the agency. The OIG has posted             Section 4(a)(2) of the IG Act authorizes the
    a scam alert on the OIG website at http://              IG to review and comment on proposed
    www.ftc.gov/oig.                                        legislation or regulations relating to the agency
                                                            or, upon request, affecting the operations of
                                                            the OIG. During this reporting period, the
    Significant Management Decisions                        OIG reviewed no legislation.

    Section 5(a)(12) of the Inspector General Act
    requires that if the IG disagrees with any              Peer Reviews
    significant management decision, such
    disagreement must be reported in the
    semiannual report to Congress. Further,                 Offices of Inspector General are required to
    Section 5(a)(11) of the Act requires that any           include in their semiannual reports to
    decision by management to change its                    Congress the results of peer reviews.
    response to a significant resolved audit finding
    must also be disclosed in the semiannual
    report. For this reporting period there were            Audit Peer Review
    no significant final management decisions
    made with which the OIG disagreed, and
    management did not revise any earlier                   Peer reviews are conducted of an OIG audit
    decisions on OIG audit recommendations.                 organization’s system of quality control in
                                                            accordance with the CIGIE Guide for
                                                            Conducting External Peer Reviews of the Audit
                                                            Organizations of Federal Offices of Inspector General,
    Access to Information                                   based on requirements in the Government
                                                            Auditing Standards (Yellow Book).
    The IG is to be provided with ready access to
    all agency records, information, or assistance
    when conducting an investigation or audit.              Federal audit organizations can receive a
    Section 6(b)(2) of the IG Act requires the IG           rating of pass, pass with deficiencies, or fail.
    to report to the agency head, without delay, if         The objectives of an external peer review
    the IG believes that access to required                 include a review of an audit organization’s
    information, records or assistance has been             system of quality control to determine not
    unreasonably refused, or otherwise has not              only the suitability of the design, but also
    been provided. A summary of each report                 whether the audit organization is in
    submitted to the agency head in compliance              compliance with its quality control system so
    with Section 6(b)(2) must be provided in the            as to provide reasonable assurance the audit
    semiannual report in accordance with Section            organization conforms to applicable
    5(a)(5) of the Act. During this reporting               professional standards.
    period, the OIG did not encounter any
    problems in obtaining assistance or access to
    agency records. Consequently, no report was
    issued by the IG to the agency head pursuant
    to Section 6(b)(2) of the IG Act.



                                                       10
 


       The FTC OIG audit program was peer               During this period, the FTC OIG
         reviewed most recently by the                    investigative operations was the subject of a
         Smithsonian Institution Office of                peer review conducted by the Federal
         Inspector General. The peer review final         Election Commission (FEC) OIG. FEC
         report, dated December 2009, reflected           issued its final report to us in March 2012. In
         that the FTC OIG received a peer                 FEC’s opinion, the system of internal
         review rating of pass, the highest               safeguards and management procedures for
         possible rating; there were no                   the investigative function of the FTC OIG in
         recommendations. The peer review                 effect for the twelve month period ending
         report is available on the FTC OIG               March 2012, was in compliance with the
         website http://www.ftc.gov/oig/                  quality standards for investigations
         oigaudit.shtm                                    established by CIGIE. These safeguards and
                                                          procedures provided reasonable assurance of
                                                          conforming with professional standards in
       During the reporting period, the FTC             the conduct of FTC OIG investigations.
         OIG completed a peer review of the
         audit operations of the Postal Regulatory
         Commission (PRC), and we issued our              No external peer reviews of another Federal
         final report to that OIG in March 2012.          investigation organization were conducted by
         We reported that in our opinion, the             the FTC OIG during this semiannual
         system of quality control for the audit          reporting period.
         organization of the PRC OIG, in effect
         for the period ended September 30,
         2011, had been suitably designed and
         complied with to provide the PRC OIG
         with reasonable assurance of performing
         and reporting in conformity with
         applicable professional standards in all
         material respects. The PRC OIG
         received a peer review rating of pass;
         there were no recommendations. PRC
         OIG has posted the system review
         report on its website.




    Investigation Peer Review


    OIGs with statutory law enforcement
    authority pursuant to Section 6(e) of the
    Inspector General Act are subject to a peer
    review no less than once every three years.
    The FTC OIG does not have statutory law
    enforcement authority. Therefore, our
    investigation organization is not required to
    have a peer review. However, the FTC OIG
    has voluntarily participated in the peer
    review process during this reporting period.


                                                     11
 


Table 1: Reports with Recommendations on which Corrective
Action has not been Completed *




    Report No.   Report Date   Report Title             Summary of Recommendations


    AR 08‐002    September     Administration of        HRMO to assess the need for oﬀering
                    2008       Leave                    training for new timekeepers and to revise
                                                        the FTC Administrative Manual to reflect
                                                        updated OPM regulations on military leave


    AR 09‐001A    February     Financial Statement      FMO should work with its vendor to ensure
                    2009       Management Letter FY     all necessary reports can be generated from
                               2008                     Oracle in a timely manner and not require
                                                        extensive reconciliations by the FMO. This
                                                        recommendation does not rise to the level of
                                                        a significant financial control weakness


  IR 09‐002      September     COTR Oversight of        FMO should develop a training or
                    2009       Sole Source Contracts    instructional vehicle such as a brochure; to
                                                        include an explanation of the contracting
                                                        process and the requirements to assist the
                                                        acquisition staﬀ in completing a contracting
                                                        action.


    AR 10‐001A      May        Financial Statement      FMO should improve its documentation of
                               Management Letter FY     contract awards to service disabled veteran‐
                    2010
                               2009                     owned small businesses; and improve
                                                        closing procedures of deobligations on
                                                        completed contracts. Neither of these
                                                        recommendations rise to the level of
                                                        significant financial control weaknesses


    AR 10‐003      August      Audit of the FTC         FMO should implement procedures to
                               Travel Program           review the Central Billing Account for
                    2010
                                                        unauthorized charges




* Open 180 days or more



                                                   12
           


    Table 1 (continued): Reports with Recommendations on which
    Corrective Action has not been Completed




    Report No.   Report Date   Report Title              Summary of Recommendations




AR 11‐001A          April      Financial Statement       FMO should strengthen its documentation of
                               Management Letter FY      contract files for awards of contracts under
                    2011
                               2010                      the Federal Supply Schedule; FMO should
                                                         prepare a fraud risk assessment to
                                                         supplement its risk assessment performed
                                                         for FMFIA. Neither of these
                                                         recommendations rise to the level of
                                                         significant financial control weaknesses.



AR 11‐003          January     Follow‐Up Review of the   FTC should develop criteria for assessing
                               FTC Purchase Card         when it is appropriate to purchase medical
                    2011
                               Program                   evacuation services for employees traveling
                                                         overseas; FTC should update the
                                                         Administrative Manual to reflect the
                                                         requirement for annual purchase card
                                                         training.


AR‐11‐004        September     Audit of the FTC          FTC should evaluate and install inventory
                               Warehouse Operations      software to track all warehouse items such as
                    2011
                                                         furniture, supplies, equipment, and
                                                         publications. This includes recording all
                                                         information about an item, such as date of
                                                         purchase and cost, and utilizing bar‐coding
                                                         technology to track items, establishing
                                                         minimum stock levels and reorder points




 




                                                  13
 


    Table 2: Inspector General Issued Reports with Questioned
    Costs

     


                                                                        Dollar Value


                                                        Number Questioned     Unsupported
                                                                  Costs          Costs


        A.   For which no management decision has         0         0              0
             been made by the commencement of
             the reporting period
        B.   Which were issued during the                 0         0              0
             reporting period


             Subtotals (A+B)                              0         0              0



        C.   For which a management decision was          0         0              0
             made during the reporting period


             (i) dollar value of the disallowed costs     0         0              0



             (ii) dollar value of the cost not            0         0              0
             disallowed


        D.   For which no management decision             0         0              0
             was made by the end of the reporting
             period
        E.   Reports for which no management              0         0              0
             decision was made within six months
             of issuance
     


                                                 14
           


Table 3: Inspector General Issued Reports with
Recommendations that funds be put to Better Use
 



                                                                 Number   Dollar
                                                                          Value



A. For which no management decision has been made by               0        0
       the commencement of the reporting period


    B Which were issued during this reporting period               0        0

C. For which a management decision was made during the             0        0
       reporting period


       (i) dollar value of recommendations that were agreed to     0        0
       by management


       ‐ based on proposed management actions                      0        0

       ‐ based on proposed legislative action                      0        0

       (ii) dollar value of recommendations that were not          0        0
       agreed to by management


D. For which no management decision has been made by               0        0
       the end of the reporting period


E. Reports for which no management decision was made               0        0
       within six months of issuance




                                                    15
 


Table 4: Summary of Inspector General Reporting Requirements




 

IG ACT Reference   Reporting Requirement                                Page(s)


Section 4(a)(2)    Review of Legislation and regulations                  10

Section 5(a)(l)    Significant problems, abuses and deficiencies          5‐6

Section 5(a)(2)    Recommendations with respect to significant            5‐6
                   problems, abuses and deficiencies

Section 5(a)(3)    Prior significant recommendations on which             12
                   corrective actions have not been made

Section 5(a)(4)    Matters referred to prosecutive authorities            9

Section 5(a)(5)    Summary of instances where information was            none
                   refused

Section 5(a)(6)    List of audit reports by subject matter, showing     14‐15
                   dollar value of questioned costs and funds put to
                   better use
Section 5(a)(7)    Summary of each particularly significant report        5‐6

Section 5(a)(8)    Statistical tables showing number of reports and       14
                   dollar value of questioned costs

Section 5(a)(9)    Statistical tables showing number of reports and       15
                   dollar value of recommendations that funds be put
                   to better use
Section 5(a)(10)   Summary of each audit issued before this reporting    none
                   period for which no management decision was
                   made by the end of the reporting period

Section 5(a)(11)   Significant revised management decisions              none

Section 5(a)(12)   Significant management decisions with which the       none
                   Inspector General disagrees

                                        16
     

 




             CONTACTING THE OFFICE OF INSPECTOR GENERAL




        HELP PROMOTE INTEGRITY, ECONOMY AND EFFICIENCY REPORT SUSPECTED FRAUD,
           WASTE, ABUSE OR MISMANAGEMENT COMPLAINT MAY BE MADE ANONYMOUSLY


                               OFFICE OF INSPECTOR GENERAL

                           600 PENNSYLVANIA AVENUE, NW NJ-1110

                                 WASHINGTON, D.C. 20580



                         HOTLINE TELEPHONE NUMBER: (202) 326-2800

                                FAX NUMBER: (202) 326-2034

                               HOTLINE EMAIL: OIG@FTC.GOV




    ANY INFORMATION YOU PROVIDE WILL BE HELD IN CONFIDENCE. HOWEVER, PROVIDING
        YOUR NAME AND MEANS OF COMMUNICATING WITH YOU MAY ENHANCE OUR ABILITY TO

                                      INVESTIGATE.




                                            17
 




    18
